LISCA4 Appeal: 19-4776

Doc: 22

Filed: 09/09/2020

Pg: 1 of 3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-4776
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

ERON JORDAN.
Defendant - Appellant.

Appeal from the United States District Court for the District of South Carolina, at Florence.
R. Bryan Harwell, Chief District Judge. (4:18-cr-00558-RBH-l)
•v

Submitted: August 31, 2020

Decided: September 9, 2020
I-

Before WILKINSON, KEENAN, and HARRIS, Circuit Judges.
Affirmed in part and dismissed in part by unpublished per curiam opinion.
Michael A. Meetze, Assistant Federal Public Defender, OFFICE OF THE FEDERAL
PUBLIC DEFENDER, Florence, South Carolina, for Appellant. Lauren L. Hummel,
Assistant United States Attorney, OFFICE OF THE UNITED STATES ATTORNEY,
Florence, South Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 19-4776

Doc: 22

Filed: 09/09/2020

Pg:2of3

PER CURIAM:
Eron Jordan pled guilty, pursuant to a written plea agreement, to possession with
intent to distribute quantities of heroin, cocaine, cocaine base, hydrocodone, oxycodone,
and buprenorphine, in violation of 21 U.S.C. § 841(a)(1). fl3)(l)(C). (E). The district court
classified Jordan as a career offender and sentenced him to 144 months’ imprisonment, a
sentence below his advisory Sentencing Guidelines range. Counsel has filed a brief
pursuant to Anders v. California, 3.86 II.S. 738 (1967), stating that there are no meritorious
grounds for appeal but questioning whether Jordan’s plea was knowingly and voluntarily
entered and whether Jordan’s sentence is reasonable. Jordan has filed a supplemental pro
se brief, arguing that his plea was involuntary. The Government moves to dismiss the
appeal of the sentence as barred by the appellate waiver included in Jordan’s plea
agreement. We affirm in part and dismiss in part.
We review the validity of an appellate waiver de novo and “will enforce the waiver
if it is valid and the issue appealed is within the scope of the waiver.” United States v.

t?

Adams, 814 F.3d 178. 182 (4th Cir. 2016). A waiver is valid if it is “knowing and
voluntary.” Id. To determine whether a waiver is knowing and voluntary, “we consider
the totality of the circumstances, including the experience and conduct of the defendant,
his educational background, and his knowledge of the plea agreement and its terms.”
United States v. McCoy, 895 F.Jd 358. 362 (4th Cir. 2018) (internal quotation marks
omitted). “Generally . .., if a district court questions a defendant regarding the waiver of
appellate rights during the [Fed. R. Crim. P.] 11 colloquy and the record indicates that the

2

V'f

t
USCA4 Appeal: 19-4776

Doc: 22

Filed: 09/09/2020

Pg: 3 of 3

defendant understood the full significance of the waiver, the waiver is valid.” Id. (internal
quotation marks omitted).
Our review of the record confirms that Jordan knowingly and voluntarily waived
his right to appeal, with, limited exceptions not applicable here. We therefore conclude that
the waiver is valid and enforceable and that counsel’s challenge to the reasonableness of
Jordan’s sentence falls squarely within the scope of the waiver.
In accordance with Anders, we have reviewed the entire record in this case and have
found no potentially meritorious grounds for appeal outside the scope of Jordan’s Valid
appellate waiver. We therefore grant the. Government’s motion to dismiss in part and
dismiss the appeal as to all issues within the waiver’s scope. We otherwise affirm the
judgment. This court requires that counsel inform Jordan, in writing, of the right to petition
the Supreme Court of the United States for further review. If Jordan requests that a petition
be filed, but counsel believes that such a petition would be frivolous, then counsel may
move in this court for leave to withdraw from representation. Counsel’s motion must .state
J

that a copy thereof was served on Jordan.
We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED IN PART,
DISMISSED IN PART

*1

3

USCA4 Appeal: 19-4776

Filed: 09/09/2020

Doc: 23-2

Pg: 1 of 1

Total Pages:(3 of 3)

FILED: September 9, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4776
(4:18-cr-005 5 8-RBH-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
- v.

ERON JORDAN
Defendant - Appellant

*

JUDGMENT

In accordance with the decision of this court, the judgment of the district
court is affirmed in part. The appeal is dismissed in part.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

